Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




         Child Support for
         Children on TANF




                    JANET REHNQUIST
                     Inspector General

                      FEBRUARY 2002
                      OEI-05-99-00392
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff included:

REGION                                                    HEADQUARTERS

Tom Komaniecki, Project Leader                                     Linda Hall, Program Specialist




         To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
               Reports are also available on the World Wide Web at our home page address:

                                             http://oig.hhs.gov/
                                     EXECUTIVE SUMMARY

PURPOSE

         To describe the alignment of the child support order with the earnings of non-custodial parents
         who have children on Temporary Assistance for Needy Families (TANF) and to describe the
         relationship of this alignment with their compliance with the support order.




BACKGROUND

         An Office of Inspector General report entitled, The Establishment of Child Support Orders
         for Low-Income Non-custodial Parents (OEI-05-99-00390), examined the policies and
         practices used to determine the amount of child support paid by low-income non-custodial
         parents. The report found that methods used to determine support orders for low-income non-
         custodial parents often yield poor compliance with the support order. We followed up on a
         sample of 270 non-custodial parents used in our previous study and examined 4 years of
         earnings data and their compliance with their support orders.




FINDINGS

Over Half of Our Non-custodial Parents with Children on TANF Had Reported
Earnings Below the Poverty Line

         In 1995, 55 percent of our non-custodial parents had earnings that were below the poverty line
         of $7,470 for one person. Twenty percent had no reported earnings in 1995. The overall
         average reported earnings for our low-income non-custodial parents was $8,460. The average
         reported personal income for males in 1995, according to Census data, was $31,454.

         From 1995 to 1998, the average reported earnings for non-custodial parents increased by 28
         percent with the largest increases occurring in those low-income non-custodial parents who had
         reported earnings that were below the poverty line in 1995. However, despite the overall
         increase in reported earnings, about 50 percent of our non-custodial parents still had reported
         earnings below the poverty line for 1998.




Child Support for Children on TANF                   i                                       OEI-05-99-00392
Total Support Orders for Non-custodial Parents Below the Poverty Line Represent
69 Percent of Their Reported Earnings

         The overall average of total support orders to reported earnings was 40 percent. However,
         for non-custodial parents with reported earnings below poverty, total child support orders were
         69 percent of reported earnings for 1996.

         This ratio of 69 percent of child support ordered to reported earnings appears to exceed
         Federal law that prohibits States from garnishing more than 50 to 65 percent of income
         depending on whether the non-custodial parent was in arrears or supporting another family.
         The ratio also appears to exceed the limitations on maximum award levels in many States even
         for families with multiple children. For example, Wisconsin limits the percent of income a non-
         custodial parent has to pay as support to 34 percent when there are five or more children.
         Minnesota will set a support order as a percent of income as high as 50 percent when there are
         seven or more children and the non-custodial parent has a net monthly income of $1,001 or
         greater. In our sample, the average number of children per non-custodial parent where support
         orders were in place was 1.4.

Two Factors, Earnings and Retroactive Support, Have a Plausible Association
with a Non-custodial Parent’s Compliance with a Child Support Order

         According to the Census Bureau, approximately 59 percent of all child support owed was paid
         in 1997. This represents child support owed to families whether or not they are on TANF. By
         way of comparison, our analysis revealed that over a 32 month period of time our non-custodial
         parents paid only 39 percent of the support owed to families on TANF. A further examination
         of support order compliance reveal differences based on a non-custodial parent’s earnings and
         the percent a support order represents of their earnings.

         In addition, the combination of factors, earnings and retroactive support, have a plausible
         association with a non-custodial parent's support order compliance. Previous work examining
         State policies indicated that the number of months of retroactive support affected the parent’s
         compliance with their support order. Our analysis indicated that earnings before order
         establishment, increases in reported earnings and the number of months of retroactive support
         impact compliance. Low reported earnings before order establishment and the number of
         months of retroactive support tended to have negative impact on compliance. Increases in
         earnings and a lower proportion of award to earnings tend to have a positive effect on
         compliance.

CONCLUSION

         The most effective way to achieve both immediate and long-term child support payments for
         children on TANF is to set realistic support orders when compared to a non-custodial parent’s
         earnings. The support order can be raised gradually as a non-custodial parent’s earnings
         increase. This action would likely result in increasing child support payments rather than starting
         with a support order that is unrealistic when compared to a non-


Child Support for Children on TANF                   ii                                        OEI-05-99-00392
         custodial parent’s earnings. Meanwhile, as a non-custodial parent is increasing their earnings
         and support payments, a custodial parent can rely on TANF to support the family. Starting a
         support order too high is more likely to have the opposite effect on payment compliance with
         little improvement over time.

         This is consistent with the conclusions made in our earlier work examining State policies used in
         the establishment of child support orders for low-income non-custodial parents. At that time,
         we believed that States should experiment with State policies that determine the amount low-
         income non-custodial parents must pay in child support.

         As a response to our earlier work, the Administration for Children and Families, (ACF) Office
         of Child Support Enforcement issued a Policy Interpretation on September 14, 2000 to all
         State IV-D Directors regarding program flexibility with respect to low-income non-custodial
         parents. In that letter, the Office of Child Support Enforcement informed States that they
         currently have the flexibility to substantially address all the issues raised in our earlier work.

         We continue to encourage States to experiment with policies dealing with low-income non-
         custodial parents. We recognize that some of the experiments with policies dealing with low-
         income non-custodial parents may require additional resources. We also continue to advocate
         that the Office of Child Support Enforcement encourage, facilitate and evaluate State
         experiments that address concerns raised in our earlier work.




AGENCY COMMENTS

         We received comments from the Administration for Children and Families. They agree with
         our conclusion and described a number of specific actions which they have taken to address
         findings in this and related prior reports. In addition, ACF is providing waivers and
         demonstration projects to address the complex issues which impede low income non-custodial
         parents from supporting their families. Finally, ACF is preparing a detailed action plan on
         improving the collection and distribution of child support nationwide. The action plan will
         include programmatic innovations to address the needs of low-income, non-custodial parents as
         they move towards full responsibility for supporting their children. A complete text of their
         comments can be found in Appendix C.




Child Support for Children on TANF                   iii                                        OEI-05-99-00392
                            TABLE                        OF               CONTENTS



EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Reported earnings below poverty line . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Percent of support orders to earnings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Compliance associated with earnings and retroactive support . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDIX A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX B: Regression Model . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Child Support for Children on TANF                                   iv                                                      OEI-05-99-00392
                                     INTRODUCTION


PURPOSE

         To describe the alignment of the child support order with the earnings of low-income non-
         custodial parents with children on Temporary Assistance to Needy Families and to describe the
         relationship of this alignment with their compliance with the support order.




BACKGROUND

Child Support Enforcement

         The Child Support Enforcement (CSE) program was created in 1975 with the addition of Part
         D to Title IV of the Social Security Act. The CSE program was initiated as a joint Federal-
         State effort to contend with growing public expenditures on welfare and the lack of paternity
         establishment for children born outside of marriage. The States were assigned the responsibility
         for administering the program through IV-D agencies (referring to the related title of the Social
         Security Act). These agencies are charged with locating absent parents, establishing paternity
         and collecting child support with technical and operational assistance from the Federal Office of
         Child Support Enforcement (OCSE).

         The establishment of orders for child support enforcement cases occurs through either judicial
         or administrative processes. Federal law requires States to establish child support orders in
         accordance with State guidelines, outlining specific descriptive and numeric criteria. Any
         deviation from the presumptive guideline amount must be justified in writing.

         States generally use one of three types of guidelines in establishing child support orders. Most
         States (31) use the “Income Shares” approach which uses the combined income of both
         parents to determine the child support order. This method tries to guarantee that the child
         receives the same proportion of income that they would have received had the parents stayed
         together. Fifteen States use a percentage of income approach. This method uses the number
         of eligible children to determine the percentage of the non-custodial parent’s income. A few
         States use the “Melson-Delaware” approach which provides for a minimum self-support
         reserve before prorating the cost of raising the child between the parents.

         States also have some procedures to establish an order for a non-custodial low-income parent.
         States are almost evenly split in the how they approach determining an award for a low-income
         parent. Some States leave the decision to the court’s discretion while other States make a
         presumptive award unless there is evidence that supports a lower award. The remaining States
         set mandatory minimums that cannot be adjusted downwards.

Child Support for Children on TANF                   1                                        OEI-05-99-00392
         States can also hold a non-custodial parent responsible for retroactive support. The child
         support enforcement community sees retroactive support as a disincentive to non-custodial
         parents to delay the establishment of the support order. Retroactive support is also seen as
         holding the non-custodial parents accountable for supporting their children and recouping
         expenses incurred by the State or the custodial parent.

Increasing Attention to the Treatment of Low-income Non-custodial Parents

         Earnings of non-custodial parents can be divided into three income tiers: high, middle and low.
         The percentage of non-custodial parents who do not pay their child support is greatest in the
         low-income tier.

         While some low-income non-custodial parents are delinquent because they are unwilling to pay
         support, an estimated 60 percent have a limited ability to pay child support based on their
         income levels, employment history, education levels and rates of institutionalization. These non-
         custodial parents are known in the child support community as “dead broke” rather than “dead-
         beat.”

         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 presented a
         package of temporary aid and opportunities for welfare mothers to become self-sufficient.
         Child support payments are seen as a vital ingredient to this self-sufficiency. To increase child
         support payments to former welfare families, the limited earnings of non-custodial parent need
         to be addressed.

         In the wake of welfare reform, more attention is being devoted to how to improve the family
         maintenance contributions of low-income fathers to parallel the welfare-to-work initiatives for
         low-income mothers. Three developments demonstrate this trend.

         C	        A portion of welfare-to-work funds in the Balanced Budget Act of 1997 was
                   designated to help low-income fathers secure employment, pay child support and
                   increase their involvement with their children. In March 2000, the Department
                   announced $15 million in combined Federal and private funding for demonstration
                   projects serving non-custodial parents who do not have a child support order in place
                   and may face obstacles to employment.

         C	        Amendments to the welfare-to-work law in the November 1999 Consolidated
                   Appropriations Act broadened the eligibility requirements for non-custodial parents to
                   participate in the services available through welfare-to-work programs.

         C	        Publication of A Guide to Funding Services for Children and Families Through the
                   Temporary Assistance for Needy Families (TANF) Program by the Administration
                   for Children and Families (ACF) which provides examples of ways States can use their
                   TANF funds to support responsible fatherhood efforts and employment of non-
                   custodial parents. About half of the States have allocated some TANF funds to
                   support responsible fatherhood programs.

         To increase the payment of child support by low-income non-custodial parents, representatives
         of the child support community have begun to explore other avenues


Child Support for Children on TANF                    2                                        OEI-05-99-00392
         beyond punitive enforcement. We examined the relationship between earnings and support
         order establishment and how this impacts overall compliance with the support orders.

Previous Office of Inspector General Work

         In July 2000, the Office of Inspector General (OIG) released two reports entitled The
         Establishment of Child Support Orders for Low-Income Non-Custodial Parents, OEI-05-
         99-00390 and State Policies Used to Establish Child Support Orders for Low-income
         Non-custodial Parents, OEI-05-99-00391. These reports examined the policies and
         practices, such as minimum support orders and retroactive support, used by States to
         determine the amount of child support paid by low-income non-custodial parents. The report
         found that methods used to determine support orders for low-income non-custodial parents
         often yield poor compliance with the support order.

         The OIG and OCSE have a joint enforcement effort targeted at higher income obligors with the
         most egregious arrears. The focus of this successful initiative is the criminal pursuit of non-
         support.




METHODOLOGY

         We selected a random sample of cases (and the 10 States associated with them) using a two-
         stage, stratified cluster sample. We stratified the United States (excluding Alaska and Hawaii)
         into three strata based on State policy regarding establishment of minimum awards for low-
         income obligors. We then divided each State into a number of case clusters based on the
         estimated number of child support cases per State. From each stratum, we randomly selected
         three or four clusters. The States containing the randomly selected clusters became our sample
         States, shown below in Table 1.




Child Support for Children on TANF                  3                                        OEI-05-99-00392
         Table 1

           Stratum               Description of how State       Clusters Population    Sample
                                 policy treats low-income
                                 non-custodial parents
           1                     Awards in court’s discretion   893 Clusters in 16     3 Clusters in MS,
                                                                States                 OK and PA

           2                     Presumptive awards     (e.g.   614 Clusters in 18     3 Clusters in TX,
                                 minimum wage)                  States                 VA and WA

           3                     Mandatory minimum awards       652 Clusters in 14     4 Clusters in CO,
                                                                States plus District   MA, MD and NY
                                                                of Columbia

         For stratum three, we randomly selected two replacement clusters because our first selections,
         Michigan and Indiana, declined to participate in the study. Because of this replacement, we
         projected our statistics to a population that excludes the clusters for Michigan (153 clusters)
         and Indiana (35 clusters).

         We conducted case record reviews in each of the 10 States. From these States, we obtained
         data on all child support cases in which (1) the child support order was established during
         1996, (2) the custodial parent was on Aid to Families with Dependent Children (AFDC) or
         Temporary Assistance to Needy Families (TANF) at the time the order was established and
         (3) the case was still open.

         We randomly assigned the non-custodial parents for these cases to each State’s clusters. We
         then randomly selected one cluster per State for our sample. From these clusters, we randomly
         selected a sample (usually 35 per cluster) of non-custodial parents. We reviewed all child
         support cases for each non-custodial parent in our sample, including any cases the non-
         custodial parent had open for other children. This resulted in an initial sample of 281 non-
         custodial parents with 402 child support cases of which 298 cases had been established during
         1996 in the sampled States. Data on the methods used to establish support orders and
         subsequent payments generated is based on the cases established during 1996 in the sampled
         States.

         We then matched this initial sample of 281 non-custodial parents with Internal Revenue Service
         (IRS) records to obtain reported earnings from 1995 to 1998. Our analysis uses earnings as
         reported to IRS. We were able to obtain reported earnings for 270 of the 281 non-custodial
         parents. This resulted in a final sample of 270 non-custodial parents with 376 child support
         cases of which 273 had been established in 1996. The reasons for no reported earnings can
         not be ascertained from the data used for this report.

         The payment period we examined on all cases is 32 months as this was the period of time for
         which all cases had the opportunity for payment. Thirty-two months is the minimum amount of
         time between the last month in which sampled orders were established,



Child Support for Children on TANF                      4                                       OEI-05-99-00392
         December 1996, and the last month for which we had access to payment information for all
         cases, August 1999. Except where specified, the statistics in this report are weighted to reflect
         all levels of clustering and stratification. All reported correlations are statistically significant at
         the 90 percent confidence level or greater.

         To measure a non-custodial parent’s relationship to poverty, we used the poverty guidelines
         issued by the Department. In all cases, the figures shown for the poverty line are for one
         person.

         Our review was conducted in accordance with the Quality Standards for Inspections issued
         by the President’s Council on Integrity and Efficiency.




Child Support for Children on TANF                      5                                           OEI-05-99-00392
                                                   FINDINGS



Over half of our non-custodial parents with children on TANF
had reported earnings below the poverty line

In 1995, average reported earnings for our entire sample of non-custodial parents
was $8,460

         In 1995, 55 percent of our low-income non-custodial parents had reported earnings that were
         below the poverty line of $7,470 for one person. Of the 55 percent, 20 percent had no
         reported earnings in 1995. Twenty-three percent had reported earnings between one and two
         times the poverty line, while 21 percent of low-income non-custodial parents had reported
         earnings of more than $14,940. The median income for our entire sample was $5,468 in 1995.
         In comparison, the average reported personal income for males in 1995, according to the U.S.
         Census Bureau, was $31,4541 with a median income of $22,5622.

         From 1995 to 1998, the average reported earnings for non-custodial parents increased by 28
         percent. For the same time period, the overall increase in reported income according to U.S.
         Census Bureau figures, was 15 percent for males. The change in the consumer price index was
         about 7 percent over the same period of time. Despite the overall increase in reported
         earnings, about 50 percent of our low-income non-custodial parents still had reported earnings
         below the poverty line of $8,050 in 1998. In 1998, the average reported earnings for our non-
         custodial parents were $10,796 with a median income of $7,884 (See Table 2).

                          Table 2

                              Reported Earnings           Mean                Median
                              1995                        $8,460              $5,468

                              1996                        $9,639              $7,565

                              1997                        $10,081             $7,998

                             1998                         $10,796             $7,884
                            Source: OIG Analysis



         1	
                   U.S. Census Bureau; "Historical Income Tables - People, (Table) P-3. Race and Hispanic Origin of
                   People by Mean Income and Sex: 1947-1999;" created February 7, 2001 ;
                   <http://www.census.gov/hhes/income/histinc/p03.html>

         2	
                   U.S. Census Bureau; "Historical Income Tables - People, (Table) P-2. Race and Hispanic Origin of
                   People by Median Income and Sex: 1947-1999;" created February 7, 2001 ;
                   <http://www.census.gov/hhes/income/histinc/p02.html>


Child Support for Children on TANF                            6                                                OEI-05-99-00392
         The largest increase in reported earnings was among those low-income non-custodial parents
         who had reported earnings that were below the poverty line in 1995. This group of low-
         income non-custodial parents saw increases in reported earnings of nearly 200 percent although
         this represented an increase of $3,732 to an average reported earnings of $5,631 in 1998.
         Those low-income non-custodial parents who had reported earnings in excess of $14,940 saw
         a decrease of 5 percent in reported earnings from 1995 to 1998.

         Overall, 8 percent of our low-income non-custodial parents had no reported earnings from
         1995 through 1998. In comparison, 1 in 6 non-custodial parents in our sample had increases in
         reported earnings in each year between 1995 and 1998.



Total support orders for low-income non-custodial parents
below the poverty line represents 69 percent of their earnings

         The average amount of total support ordered for 1996 for low-income non-custodial parents
         below the poverty line in 1996 was $1,249 representing 69 percent of earnings. This amount
         includes all child support for which the non-custodial parent is responsible for paying.

         In 1996, the overall average of total child support orders in our sample was $1,552 which
         represented 40 percent of reported earnings. For non-custodial parents with reported earnings
         in excess of two times the poverty, total support orders were 9 percent of reported earnings.

         This ratio of 69 percent of child support ordered to reported earnings appears to exceed
         Federal law that prohibits States from garnishing more than 50 to 65 percent of income
         depending on whether the non-custodial parent was in arrears or supporting another family.
         The ratio also appears to exceed the limitations on maximum award levels in many States even
         for families with multiple children.. For example, Wisconsin limits the percent of income a non-
         custodial parent has to pay as support to 34 percent when there are five or more children.
         Minnesota will set a support order as a percent of income as high as 50 percent when there are
         seven or more children and the non-custodial parent has a net monthly income of $1,001 or
         greater. In our sample, the average number of children per non-custodial parent where support
         orders were in place was 1.4.

Monthly child support obligations increase as earnings increase

         In our sample, we found that, on average, as a non-custodial parent’s income increased the
         amount of the support order established increased. For example, in 1996 the average child
         support order was $141 for non-custodial parents reporting earnings below the poverty line in
         1995. The average monthly child support order for non-custodial parents who had reported
         earnings of twice the poverty line in 1995 was $282. The overall




Child Support for Children on TANF                  7                                        OEI-05-99-00392
         average amount of monthly child support obligations established in 1996 was $184 (See Table
         3).

                        Table 3


                           Relationship to Poverty line for          Monthly Child Support
                           1995                                      Order
                           Poverty line or below                     $141

                           1 to 2 times poverty                      $195

                          More than 2 times poverty                  $282
                         Source: OIG Analysis




         Federal law requires that States use an established set of guidelines upon which to base child
         support orders. However, most States have a process that allows exceptions which can be
         used when establishing support orders for low-income non-custodial parents. These processes
         range from allowing the order to deviate from the guidelines because of low-income to
         establishing minimum support orders. However, in cases where a minimum support order is
         part of the State’s guidelines, the State must allow some mechanism that can be used to show
         that the minimum order would be inappropriate. Our previous work found that 36 percent of
         cases established with a minimum order cases made no payments toward their support
         obligation compared to 20 percent of cases established with a non-minimum order.3




Two factors, earnings and retroactive support, have a
plausible association with a non-custodial parent’s
compliance with a child support order

Over a 32-month period, non-custodial parents of TANF children paid on average
only 39 percent of child support owed




         3	
                   U.S. Department of Health and Human Services, Office of Inspector General, The Establishment of
                   Child Support Orders for Low-income Non-custodial Parents, OEI-05-00390, July 2000, pg. 18.


Child Support for Children on TANF                           8                                                OEI-05-99-00392
         According to the U.S. Census Bureau, in 1997 non-custodial parents complied with 59 percent
         of the support owed4 This represents child support owed to families receiving TANF and
         those not receiving TANF. By way of comparison, our analysis revealed that over a 32 month
         period of time our non-custodial parents paid only 39 percent of the support owed to families
         receiving TANF. Our examination of compliance does not account for any informal or in-kind
         support provided by a non-custodial parent.

         According to our sample, those non-custodial parents who had no reported income in 1995,
         the year prior to the establishment of their support orders, complied with 17 percent of the child
         support due over a 32-month period of time. Over the same 32-month period of time, non-
         custodial parents who had reported earnings in excess of two times the poverty line in 1995
         complied with 62 percent of the child support due (See Chart 1).

         For all non-custodial parents in our sample, those non-custodial parents whose support orders
         in 1996 were 15 percent or less of their income complied with 61 percent of their support
         order. Non-custodial parents who had support orders that were more than 20 percent of
         income in 1996 complied with 20 percent of their support order.

The combination of factors, earnings and retroactive support, have a plausible
association with a non-custodial parent’s support order compliance
                   Chart 1




         4
                   U.S. Census Bureau; "Table 1. Child Support Payments Due and Actually Received, by Gender
                   1997 (People 15 years and older with own children under 21 years of age present from an absent
                   parent as of spring 1998)" Revised October 13, 2000;
                   <http://www.census.gov/hhes/www/childsupport/97tables/tabl.html>


Child Support for Children on TANF                            9                                                OEI-05-99-00392
         We examined how the various factors discussed in previous sections interact with each other in
         being able to predict a non-custodial parents compliance with their support order. We found
         that the earnings of non-custodial parents with children on TANF and a State policy of
         charging retroactive support have a plausible association with their compliance with the support
         order.

         We examined the non-custodial parent’s income in the year before the support order was
         established as it relates to the poverty line for 1995. We grouped the low-income non-
         custodial parents’ income into three categories: below the poverty line, one to two times the
         poverty line, and more than two times the poverty line. In addition, we looked at whether the
         low-income non-custodial parent had an increase in reported earnings from 1995 to 1998.

         We also reviewed whether the State charged the non-custodial parent with any front end fees
         including retroactive support. Our previous work found that the longer the time for which non-
         custodial parents are charged retroactive support, the less likely they are to make any payments
         on their child support order once established.5

         Finally, we calculated the percent of the total support order to the low-income non-custodial
         parent’s income. We categorized the percent of support order to income into three categories.
         We defined a support order as “low” if the order was less than 15 percent, as “medium” if the
         order was 15 to 20 percent, and as a “high” if the order was 20 percent or more of income.

         Our analysis indicates that non-custodial parents, with income below the poverty line the year
         before the establishment of the support order, comply with less of their support. In addition,
         when front-end fees such as retroactive support are added to the non-custodial nt’s support
         order it decreases compliance with the support order. However, when a non-custodial parent
         experiences increases in reported earnings over the time period examined, compliance
         increases (See Appendix B for the results of our analysis).


      Table 4
                    Non-Custodial       Increases In    Front-end fees       Percent of          Predicted
                   Parent's Earnings       Income                          Support Order to     Compliance
                                                                               Income
        A.        < $7,470             No                            Yes Low (<15%)                       19%
        B.        < $7,470             Yes                            No Low (<15%)                       54%
        C.        < $7,470             Yes                           Yes Low (<15%)                       44%
        D.        < $7,470             No                             No Low (<15%)                       29%
        Source: OIG Analysis




         5	
                   U.S. Department of Health and Human Services, Office of Inspector General, The Establishment of
                   Child Support Orders for Low-income Non-custodial Parents, OEI-05-00390, July 2000, pg. 13.


Child Support for Children on TANF                          10                                                OEI-05-99-00392
         Table 4 presents predicted compliance rates for a few typical cases to show how changes in a
         non-custodial parent’s situation effect compliance. As demonstrated in Row A, when a non-
         custodial parent has earnings below the poverty line, with no increases in income and front-end
         fees charged, their predicted compliance with their support order is 19 percent. However,
         when that same low-income non-custodial parent has an increase in reported earnings over the
         time period examined (Row C), their compliance with their support order is 44 percent.




Child Support for Children on TANF                 11                                        OEI-05-99-00392
                                         CONCLUSION


         The most effective way to achieve both immediate and long-term child support payments for
         children on TANF is to set realistic support orders when compared to a non-custodial parent’s
         earnings. The support order can be raised gradually as a non-custodial parent’s earnings
         increase. This action would likely result in increasing child support payments rather than starting
         with a support order that is unrealistic when compared to a non-custodial parent’s earnings.
         Meanwhile, as a non-custodial parent is increasing their earnings and support payments, a
         custodial parent can rely on TANF to support the family. Starting a support order too high is
         more likely to have the opposite effect on payment compliance with little improvement over
         time.

         This is consistent with the conclusions made in our earlier work examining State policies used in
         the establishment of child support orders for low-income non-custodial parents. At that time,
         we believed that States should experiment with State policies that determine the amount low-
         income non-custodial parents must pay in child support.

         As a response to our earlier work, the Administration for Children and Families, Office of Child
         Support Enforcement issued a Policy Interpretation on September 14, 2000 to all State IV-D
         Directors regarding program flexibility with respect to low-income non-custodial parents. In
         that letter, OCSE informed States that they currently have the flexibility to substantially address
         all the issues raised in our earlier work.

         We continue to encourage States to experiment with policies dealing with low-income non-
         custodial parents. We recognize that some of the experiments with policies dealing with low-
         income non-custodial parents may require additional resources. We also continue to advocate
         that OCSE encourage, facilitate and evaluate State experiments that address concerns raised in
         our earlier work.




Child Support for Children on TANF                   12                                         OEI-05-99-00392
                                     AGENCY COMMENTS


         We received comments from the Administration for Children and Families. They agree with
         our conclusion and described a number of specific actions which they have taken to address
         findings in this and related prior reports. In addition, ACF is providing waivers and
         demonstration projects to address the complex issues which impede low income non-custodial
         parents from supporting their families. Finally, ACF is preparing a detailed action plan on
         improving the collection and distribution of child support nationwide. The action plan will
         include programmatic innovations to address the needs of low-income, non-custodial parents as
         they move towards full responsibility for supporting their children. A complete text of their
         comments can be found in Appendix C.




Child Support for Children on TANF                13                                      OEI-05-99-00392
                                                                                       APPENDIX A
                                         Confidence Intervals




                                     Percent of Non-          Standard        90 % Confidence
                                     Custodial Parents          Error
                                                                         Upper Limit      Lower Limit

 1995 - Earnings below                     55%                 3.73         61%              49%
 $7,470

 1995 - Earnings between                   23%                 1.83         26%              20%
 $7,471 and $14,940

 1995 - Earnings greater                   21%                 3.84         28%              15%
 than $14,940

 1995 - No reported                        20%                 3.37         25%              14%
 earnings

 No earnings over 4 year                   8%                  0.92         10%               7%
 period of time
 1998 - Earnings below                     50%                  6.3         60%              40%
 $8,050

 Increase in earnings in                   17%                 2.76         22%              13%
 each year over the 4 year
 period



                                          Mean                Standard        90 % Confidence
                                                                Error
                                                                         Upper Limit      Lower Limit

 1995 Reported Earnings                  $8,460                 866        $9,884           $7,036
 1996 Reported Earnings                  $9,639                 954       $11,208           $8,069

 1997 Reported Earnings                  $10,081                857       $11,490           $8,672

 1998 Reported Earnings                  $10,796                975       $12,399           $9,193

 1996 Total support                      $1,249                 142        $1,482           $1,015
 ordered for non-custodial
 parents below the poverty
 line




Child Support for Children on TANF                       14                                 OEI-05-99-00392
                                     Mean          Standard        90 % Confidence
                                                     Error
                                                              Upper Limit    Lower Limit

 1996 Total support                  $1,552          175        $1,841         $1,264
 ordered for all non-
 custodial parents

 1996 Report earnings for            $1,974          360        $2,566         $1,381
 non-custodial parents
 below poverty line

 1995 - Earnings below               $141           9.58         $157           $125
 $7,470

 1995 - Earnings between             $195           18.31        $225           $165
 $7,471 and $14,940

 1995 - Earnings greater             $282           50.81        $366           $199
 than $14,940
 Monthly order for all non-          $184           14.15        $207           $161
 custodial parents



                                     Median        Standard        90 % Confidence
                                                     Error
                                                              Upper Limit    Lower Limit

 1995 Reported Earnings              $5,468        $1,001       $7,115         $3,820

 1996 Reported Earnings              $7,565        $1,208       $9,552         $5,578
 1997 Reported Earnings              $7,998         $955        $9,569         $6,426

 1998 Reported Earnings              $7,884        $1,650      $10,599         $5,169




Child Support for Children on TANF            15                               OEI-05-99-00392
                                     Total Support as        Standard        90 % Confidence
                                       a Percent of            Error
                                         Income                         Upper Limit    Lower Limit

 1996 - Earnings below                    69%                 0.04         76%            62%
 $7,740

 1996 - Earnings between                  14%                 0.04         17%            11%
 $7,741 and $15,480

 1996 - Earnings greater                   9%                 0.02         13%             5%
 than $15,480

 All non-custodial parents                40%                 0.04         47%            34%




Child Support for Children on TANF                      16                               OEI-05-99-00392
                                                                                           APPENDIX B

                   Regression Model of Child Support Compliance


We used SUDAAN to perform our regression analysis. SUDAAN only uses observations where all
the data were present. We did not have complete information for 22 low-income non-custodial
parents.

The following table shows the overall regression for our model. The table includes the estimate,
standard error, t-value and significance level (probability > |t|). The t-value for each variable tests for
the effect of each independent variable on the dependent value. The last column gives the probability of
the t-value. The t-values and the associated probabilities (probability > |t|) test




                      Regression Model of Child Support Compliance

                                                   Parameter   Standard Error   t-value   Probability
                                                                                          > |t|

       A. Intercept                                .2485       .1522            1.63      .1466

       B. Non-Custodial Parent’s
       Income Below $7,470                         -.1682*     .0719            -2.34     .0519

       C. Non-Custodial Parent’s
       Income $7,471 - $14,940                     (Omitted
                                                   category)

       D. Non-Custodial Parent’s
       Income Above $14,941                        .1014       .0551            1.84      .1084

       E. Increase In Income From
       1995-1998                                   .2545**     .0341            7.46      .0001

       F. Front-end Fees Charged
       (including retroactive support)             -.1050**    .0220            -4.77     .0020

       G. “Low” Order (<15%)                       .2104       .1148            1.83      .1095

       H. “Medium” Order (15-20%)                  Omitted
                                                   category)

       I. “High” Order (>20%)                      .0213       .0996            .21       .8371

       * Statistically Significant at .10 level
       ** Statistically Significant at .05 level




Child Support for Children on TANF                             17                                       OEI-05-99-00392
the hypothesis that the parameter is actually zero and answers the question: If the true slope and
intercept were zero, what would the probability be of obtaining, by chance alone, a value as a large or
larger than the one actually obtained.

The R-square term indicates the percentage of the variation explained by the model. The R-square
value is .31 indicating that 31 percent of the variation in the proportion of child support paid is
explained by the model.




Child Support for Children on TANF                 18                                       OEI-05-99-00392
                                                        APPENDIX C
                                     Agency Comments





Child Support for Children on TANF          19              OEI-05-99-00392
                                                                             APPENDIX C
                                     Agency Comments
     COMMENTS OF THE ADMINISTRATION FOR CHILDREN AND FAMILIES ON
     THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT: �CHILD
     SUPPORT FOR CHILDREN ON TANF�(OEI-05-99-00392)


     The Department of Health and Human Services (Department) appreciates the
     opportunity to comment on this draft report, which addresses an important topic.

     General Comments

     This report was one of a series the Office of Inspector General (OIG) prepared on
     policies and practices in Child Support Enforcement that impact on low income, non-
     custodial parents. It concluded that the most effective way to achieve both immediate
     and long-term child support payments for children in the Temporary Assistance for
     Needy Families (TANF) program is to set realistic support orders that, given the low-
     income status of many of these children �s non-custodial parents, they would be able to
     meet. The OIG encourages states to experiment with policies dealing with low-
     income, non-custodial parents and encourages the Office of Child Support
     Enforcement (OCSE) to facilitate and evaluate state experiments that address concerns
     raised in their work. The report contains no specific recommendations.

     ACF Comment

     The OCSE recognizes that we have the responsibility to work with low-income, non-
     custodial parents to encourage the long-term goals of a regular job, regular payment of
     child support and participation in their children �
                                                       s lives. As the reports recognized,
     states are in the best position to conduct such experiments, but OCSE can encourage,
     facilitate and evaluate state experimentation.

     As OIG noted in the report, OCSE issued a Policy Interpretation Question (PIQ-00-03)
     on September 14, 2000, in response to an earlier work. This PIQ clarifies the
     flexibility that exists under Federal Title IV-D requirements in setting support
     obligations and securing collections from low-income, non-custodial parents. The PIQ
     addressed the recommendations of the OIG report and encouraged states to develop
     relationships with, and make referrals to, employment programs, such as the
     Department of Labor�    s Welfare-to-Work (WTW) program. The PIQ explained that
     states should not retroactively modify arrearages, but have the discretion to
     compromise or forgive arrears owed to the state. It also enumerated steps states can
     take to limit the number of �default �cases in which the obligor� s income is imputed
     because he or she does not appear for trial, and instead, to set child support orders
     based upon actual income. The OCSE also encouraged states to assist low-income,
     non-custodial parents by using case management techniques and by training staff to
     refer non-paying obligors to appropriate services.

     In addition to the PIQ, OCSE has issued guidance on the WTW program to encourage
     state Title IV-D agencies to collaborate with WTW grantees to help them serve low-



Child Support for Children on TANF             20                                   OEI-05-99-00392
                                                                           APPENDIX C
                                     Agency Comments

  parents. The OCSE's Regional Offices convened a meeting of federal, state and local
  staff to discuss child support arrears management and develop strategies states can use to
  avoid or minimize the accrual of large amounts of arrears and how to manage arrears for
  low-income, non-custodial parents, if arrears do accumulate. A report of the findings is
  available to all states for their reference. In addition, OCSE is providing waivers to ten
  states to run Fragile Family Demonstration projects. The projects test approaches to
  serving young never married, non-custodial parents who may have obstacles to
  employment and who do not have a child support order. Each of the projects includes an
  independent evaluation. The OCSE has also announced the availability of funds for state
  demonstration grants for broad collaborative efforts and outreach by child support
  agencies with a wide range of human services programs, faith-based organizations and
  community groups. This is to promote family self-sufficiency by addressing the complex
  issues, which impede low-income, non-custodial parents from supporting their families.

  This winter, ACF will submit to the Secretary an Action Plan setting out a bold
  comprehensive agenda for improving collection and distribution of child support
  nationwide. The Action Plan will include a section of programmatic innovations to
  address the needs of low-income, non-custodial parents as they move toward full
  responsibility for supporting their children. We will make good use of the OIG studies in
  developing these plans, and we appreciate the usefulness of this work as guidance for our
  efforts.




Child Support for Children on TANF           21                                    OEI-05-99-00392
